2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Le g al Briefs E-Mail Address;

Est. 1923 contact@cocklelegalbriefs.com.

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-333

ARLENE’S FLOWERS, INC. d/b/a ARLENE’S.
FLOWERS AND GIFTS, and BARRONELLE STUTZMAN,
Petitioners,

Vv.

STATE OF WASHINGTON,

ROBERT INGERSOLL, and CURT FREED,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
ON BEHALF OF SAMARITAN’S PURSE AND THE BILLY GRAHAM EVANGELISTIC
ASSOCIATION IN SUPPORT OF PETITIONERS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 5925 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of October, 2019.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : Le Qndraw- ,
My Commission Expires Nov 24, 2020 ;

Notary Public Affiant 38789

 

 
